                      CLOSEOUT FOR M93040028
      This case came to OIG in an anonymous letter dated  w,
        The allegation is that twenty-four researchers, named in the
E r , illegally help one another win NSF grants.               These
 researchers also allegedly help one another's former students win
grants .
     This letter provides no specific information that would allow
OIG to identify whether the allegation has substance. It is normal
scientific practice to develop collegial relationships with
likeminded researchers. It is unclear from the anonymous letter
what, if anything, these researchers are alleged to have done that
goes beyond this normal and legitimate scientific practice.
Because the letter is anonymous, we have no way to ask the
complainant to clarify or elaborate on the complaint.
      This case is closed and no further action will be taken.




Concurrence:



Donald E. Buzzelli
Deputy Assistant Inspector General,
Oversight




Assistant Inspector General for Oversight




~onk~orner~K. Fisher
Counsel to the Inspector General


cc:   Signatories
      Inspector General.
